HHS/OIG-Audit--"Review of Emergency Assistance Eligibility Determinations, (A-01-95-02507)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Emergency Assistance Eligibility Determinations," (A-01-95-02507)
November 1, 1995
Complete
Text of Report is available in PDF format (709 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that four of the six States included in our review were not verifying all eligibility information
for individuals applying for emergency assistance (EA). Three States did not require either gathering and/or verifying
eligibility information. In the fourth State policies and procedures for verification were acceptable, but were not followed
for 56 percent of the cases tested. Further, some EA case folders were missing at two States in our review. As a result,
there was no assurance that (1) all recipients were eligible for EA, and (2) EA claims and resulting expenditures were
appropriate. We recommended that the Administration for Children and Families notify the States involved to ensure eligibility
determinations are made in accordance with Federal regulations.